           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       SINGLE AUDIT OF THE
      STATE OF RHODE ISLAND
    FOR THE FISCAL YEAR ENDED
           JUNE 30, 2000

   December 2001   A-77-02-00005




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Office of the Inspector General
MEMORANDUM

Date:       DEC   2 1   200l                                                 Refer   To:




To:
        Dan Sweeney
        Acting Director
        Management Analysis and Audit Program Support Staff

From:   Assistant Inspector General
         for Audit

Subject:
      Single Audit of the State of Rhode Island for the Fiscal Year Ended June 30, 2000
        (A-77-02-00005)
        This report presents the Social Security Administration's (SSA) portion of the single
        audit of the State of Rhode Island for the Fiscal Year ended June 30, 2000. The Rhode
        Island Auditor General performed the audit and its reports on compliance and internal
        controls are attached (see Appendix A). Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements.

        The Rhode Island Disability Determination Services (DDS) performs disability
        determinations under SSA's Disability Insurance (Dl) and Supplemental Security
        Income (SSI) programs in accordance with Federal regulations. The DDS is reimbursed
        for 100 percent of allowable costs. The Rhode Island Department of Human Services
        (DHS) is the Rhode Island DDS's parent agency.

        For single audit purposes, the Office of Management and Budget (OMB) assigns
        Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA's Dl
        and SSI programs are identified by CFDA number 96. SSA is responsible for resolving
        single audit findings reporte~ under this CFDA number.

        The single audit reported the following findings (see Appendix B):

        .    The State did not have a statewide inventory system and procedures were not in
             place to ensure compliance regarding the use, management, and disposition of
             equipment. The corrective action plan indicates that the State subsequently issued
             statewide policies and procedures to record and track inventories.

        .    Funds were not drawn in accordance with the Cash Management Improvement Act
             (CMIA) agreement. The corrective action plan indicates the State will ensure that
             the CMIA agreement is reflective of current payment patterns.
Page 2– Dan Sweeney


·   DHS allocated central service costs to various Federal programs, including SSA’s
    disability programs, based on an estimated amount. Once actual amounts were
    available, DHS adjusted current year charges to account for the overcharge in
    previous fiscal years. The corrective action plan indicates that the overcharge is
    being adjusted by excluding quarterly central service costs until all costs have been
    recouped.

We recommend that SSA ensure that DHS:

1. Established procedures to properly account for equipment purchased with SSA
   funds.

2. Developed procedures to draw Federal funds in accordance with the terms of the
   CMIA agreement.

3. Credited the disability programs for the differences between the estimated and
   actual central services costs.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency (see Appendix C).

·   The State has not accumulated historical information concerning the cost and
    classification of its investment in fixed assets.

·   Password access controls were not in place to restrict access to the Government
    On-Line Data Entry Network system so that no individual has capability to both
    initiate and approve transactions. In addition, programmers have access to the
    system.

·   System access controls over the accounting system do not require unique
    passwords for each user to control and restrict access to the system.

·   Federal reports were not accurately prepared.

·   DHS did not have certifications to identify and exclude from its procurement process
    those subcontractors and subrecipients barred from participation in Federal
    programs.

·   The State did not credit checks outstanding more than 180 days to the Federal
    government as required by Federal regulations, resulting in questioned costs of
    $32,801.

·   Expenditures were not claimed within the period of availability, resulting in
    questioned costs of $20,369.
Page 3- Dan Sweeney



Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey
at (816) 936-5591.



                                          ~<~
                                       Steven   L.   Schaeffer




Attachments
Appendix A
Page 1 of 6
Appendix A
Page 2 of 6
Appendix A
Page 3 of 6
Appendix A
Page 4 of 6
Appendix A
Page 5 of 6
Appendix A
Page 6 of 6
Appendix B
Page 1 of 10
Appendix B
Page 2 of 10
Appendix B
Page 3 of 10
Appendix B
Page 4 of 10
Appendix B
Page 5 of 10
Appendix B
Page 6 of 10
Appendix B
Page 7 of 10
Appendix B
Page 8 of 10
Appendix B
Page 9 of 10
Appendix B
Page 10 of 10
Appendix C
Page 1 of 14
Appendix C
Page 2 of 14
Appendix C
Page 3 of 14
Appendix C
Page 4 of 14
Appendix C
Page 5 of 14
Appendix C
Page 6 of 14
Appendix C
Page 7 of 14
Appendix C
Page 8 of 14
Appendix C
Page 9 of 14
Appendix C
Page 10 of 14
Appendix C
Page 11 of 14
Appendix C
Page 12 of 14
Appendix C
Page 13 of 14
Appendix C
Page 14 of 14
                   Overview of the Office of the Inspector General
                                         Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.


                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.


                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.


                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
